No. - - - -- - - - -

IN THE SUPREME COURT
OF THE UNITED STATES

IRVIN MORENO,
Petitioner,

v.
DEWAYNE HENDRIX, Warden,
FCI Sheridan,
Respondent.
On Petition For Writ Of Certiorari To
The United States Court Of Appeals
For The Ninth Circuit
CERTIFICATE OF SERVICE AND MAILING
I, Stephen R. Sady, counsel of record and a member of the Bar of this Court, certify
that pursuant to Rule 29 .3 , service has been made of the within Motion for Leave to Proceed
In Forma Pauperis and Petition for Writ of Certiorari on the counsel for the respondent by
depositing in the United States Post Office, in Portland, Oregon on May 28, 2021, first
class postage prepaid, an exact and full copy thereof addressed to:

1

Amy Potter, Assistant U.S. Attorney
U.S. ATTORNEY'S OFFICE
Suite 2400
405 E. Eighth Avenue
Eugene, OR 97401
Elizabeth Prelogar
Acting Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave., N. W.
Washington, DC 20530-0001
Further, the original and ten copies were mailed to the Honorable Scott S. Harris,
Clerk of the United States Supreme Court, by depositing them in a United States Post
Office Box, addressed to 1 First Street, N.E., Washington, D.C., 20543, for filing on this
28th day of May, 2021, with first-class postage prepaid.
Additionally, I electronically filed the foregoing Motion for Leave to Proceed In
Forma Pauperis and Petition for Writ of Certiorari by the using the Supreme Court's
Electronic filing system on May 28, 2021.

Dated this 28th day of May, 2021. ~

.

~~~---,

Stephen . Sady
Attorney for Petitioner
Subscribed and sworn to before me this 28th day of May, 2021.

OFFICIAL STAMP
CATALINA BARBOZA
NOTARY PU8UC • OREGON
COMMISSION NO. 892172
tlfCOMMISSt0NE>CPIRE8SEP1'1MBER2S. 2023
-

2

